      U.S. Department of the Interior
      Office of Inspector General

                                    Audit Report
                         Federal Highway Grants
                      Department of Public Works
                  Government of the Virgin Islands




August 2002                      Report No. 2002-I-0042
                                                                                    V-IN-VIS-002-01-R

                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL

                                        Caribbean Regional Office
                                       Federal Building, Room 207
                                    St. Thomas, Virgin Islands 00802

                                                                                   August 16, 2002

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report "Federal Highway Grants, Department of Public Works, Government of the
         Virgin Islands" (No. 2002-I-0042)

Dear Governor Turnbull:

       This report presents the results of our audit of the management of Federal highway grants
by the Virgin Islands Department of Public Works.

        Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress. We have also provided a copy this report
to the U.S. Department of Transportation.

        Please provide a response to this report by September 30, 2002. The response should provide
the information requested in Appendix 5 and should be addressed to our Caribbean Regional Office,
Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

                                               Sincerely,


                                               Arnold E. van Beverhoudt, Jr.
                                               Regional Audit Manager

cc:   Commissioner of Public Works
      Commissioner of Property and Procurement
EXECUTIVE SUMMARY
                   In accordance with the Virgin Islands Code (3 V.I.C. Chapter 9),
BACKGROUND         the Department of Public Works is responsible for constructing,
                   maintaining, and repairing public roads and highways in the
                   Virgin Islands. Public Works, through its Office of Highway
                   Engineering, receives annual allocations of funds from the
                   Federal Highway Administration (FHWA), U.S. Department of
                   Transportation. The allocations totaled $12.7 million in fiscal
                   year 2000 and $12.8 million in fiscal year 2001. The Office of
                   Highway Engineering had 21 employees, 11 of whom were paid
                   from FHWA funds.


                   The objective of the audit was to determine whether (1) grant
OBJECTIVE          funds were properly accounted for and used in accordance with
                   applicable laws, regulations, and grant requirements; (2) road
                   construction and/or repair contracts were awarded in accordance
                   with applicable procurement requirements; and (3) payments to
                   contractors were made in accordance with contract provisions.


                   FHWA funds were used for approved projects. However,
RESULTS IN BRIEF   internal control weaknesses were identified in the areas of
                   contract administration and grant management. Specifically, we
                   found that:

                   “    Instead of soliciting bids or proposals for new contracts,
                        Government officials sometimes bypassed the competitive
                        procurement process by issuing contract amendments and
                        change orders that significantly increased the scope of
                        work and cost of contracts financed by FHWA funds.

                   “    Two contractors may have been paid as much as $457,763
                        for overhead costs that were also charged as non-salary
                        direct costs under their professional service contracts.

                   “    Potential contract cost savings of about $835,200 were not
                        realized because the Government did not ensure that
                        liquidated damages provisions were included in and
                        enforced for all construction contracts.

                   “    Salary cost reimbursements were overpaid by $43,913
                        because reimbursement vouchers contained errors.



                                1
                   “    The Disadvantaged Business Enterprise Program did not
                        meet program objectives because of a lack of staff for
                        monitoring activities.

                   “    Federally-financed equipment valued at more than $35,000
                        was not adequately accounted for and safeguarded.

                   “    Complete and accurate traffic load and other transportation
                        data were not always available during development of the
                        Territorial Transportation Improvement Plan.

                   “    FHWA funds were not always used effectively for
                        critically needed highway improvements.


                   We made 11 recommendations to the Governor of the Virgin
RECOMMENDATIONS    Islands to address the issues discussed in the report.


                   In response to the draft report, the Commissioner of Public
AUDITEE COMMENTS   Works concurred with three recommendations, partially
AND OFFICE OF      concurred with three recommendations, did not concur with
INSPECTOR          three recommendations, and did not respond to one
GENERAL            recommendation. Based on the response, we consider five
EVALUATION         recommendations resolved but not implemented, four
                   recommendations unresolved, and requested additional
                   information for one recommendation. Because this audit related
                   to Federal funds granted by the Federal Highway
                   Administration, we have added a recommendation that a copy of
                   this report will be provided to the U.S. Department of
                   Transportation.




                                2
CONTENTS
                   ................................................. 1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
RESULTS OF AUDIT   Contract Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                   Grant Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
RECOMMENDATIONS

                   1.   Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
APPENDICES         2.   Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                   3.   Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . 30
                   4.   Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . . 38




                                         3
[ Page intentionally left blank ]




               4
INTRODUCTION
               In accordance with the Virgin Islands Code (3 V.I.C. Chapter 9),
BACKGROUND     the Department of Public Works is responsible for constructing,
               maintaining, and repairing public roads and highways in the
               Virgin Islands. In this regard, Public Works (1) performs all
               functions and exercises all authority as required by Federal law
               in the construction and repair of Federally-funded highway
               projects, (2) expends all funds made available by the Federal
               Government for such purposes, and (3) prepares and submits
               reports and forms with respect to such activities required by
               Federal law.

               Public Works, through its Office of Highway Engineering,
               receives annual allocations of funds from the Federal Highway
               Administration (FHWA), U.S. Department of Transportation.
               The allocations totaled $12.7 million in fiscal year 2000 and
               $12.8 million in fiscal year 2001. These funds were given to
               (1) design, repair, construct, and enhance the 316.61 miles of
               Federal highways in the territory, (2) acquire rights-of-way for
               such highways, (3) reimburse the Government of the Virgin
               Islands for the salaries of the employees of Public Works’ Office
               of Civil Rights and State Planning and Research Office, and
               (4) provide funding for the programs of these two offices. In
               addition, FHWA funds of more than $12 million were being held
               for high priority funding of two projects: the Christiansted
               Bypass on St. Croix and the Windward Passage to Raphune Hill
               highway on St. Thomas.

               The Office of Highway Engineering had 21 employees, 11 of
               whom were paid from FHWA funds. The objectives of this unit
               are to (1) produce a Territorial Transportation Improvement
               Plan, (2) authorize all funds for the various stages of design and
               construction projects in a timely manner, (3) develop and
               implement planning projects under the State Highway Planning
               Office, (4) coordinate all projects administered by the Eastern
               Federal Lands Highway Division of the U.S. Department of
               Transportation, and (5) provide plans and specification for the
               construction of roads and bridges on Federal highway projects.




                             5
                The objective of the audit was to determine whether (1) grant
OBJECTIVE AND   funds were properly accounted for and used in accordance with
SCOPE           applicable laws, regulations, and grant requirements; (2) road
                construction and/or repair contracts were awarded in accordance
                with applicable procurement requirements; and (3) payments to
                contractors were made in accordance with contract provisions.

                To accomplish the audit objective, we interviewed officials and
                reviewed pertinent records at the Department of Public Works
                on St. Thomas and St. Croix and at the Departments of Property
                and Procurement and Finance on St. Thomas.

                Our audit was conducted in accordance with the "Government
                Auditing Standards," issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records
                and other auditing procedures that we considered necessary
                under the circumstances. The "Standards" require that we obtain
                sufficient, competent, and relevant evidence to afford a
                reasonable basis for our findings and conclusions.

                As part of our audit, we evaluated the internal controls at the
                Office of Highway Engineering, the State Planning and Research
                Office, and the Office of Civil Rights of the Department of
                Public Works and at the Department of Property and
                Procurement to the extent we considered necessary to
                accomplish the audit objective. Internal weaknesses were
                identified in the areas of contract administration and grant
                management. These weaknesses are discussed in the Results of
                Audit section of this report. The recommendations, if
                implemented, should improve the internal controls in these
                areas.


                In January 1995, the Office of Inspector General issued an audit
PRIOR AUDIT     report on Federal highway projects. Deficiencies identified in
COVERAGE        the report related to enforcement of competitive procurements,
                documentation in contract files, and appropriateness of overhead
                cost rates, still exist. Additionally, in April 1999 and October
                2000, the Federal Highway Administration and the Department
                of Public Works jointly issued two reports on cash management
                activities on St. Thomas and St. Croix (see Appendix 2).




                             6
RESULTS OF AUDIT
             FHWA funds were used for approved projects. However,
OVERVIEW     internal control weaknesses were identified in the areas of
             contract administration and grant management. Specifically, we
             found that:

             “     Instead of soliciting bids or proposals for new contracts,
                   Government officials sometimes bypassed the competitive
                   procurement process by issuing contract amendments and
                   change orders that significantly increased the scope of
                   work and cost of contracts financed by FHWA funds.

             “     Two contractors may have been paid as much as $457,763
                   for overhead costs that were also charged as non-salary
                   direct costs under their professional service contracts.

             “     Potential contract cost savings of about $835,200 were not
                   realized because the Government did not ensure that
                   liquidated damages provisions were included in and
                   enforced for all construction contracts.

             “     Salary cost reimbursements were overpaid by $43,913
                   because reimbursement vouchers contained errors.

             “     The Disadvantaged Business Enterprise Program did not
                   meet program objectives because of a lack of staff for
                   monitoring activities.

             “     Federally-financed equipment valued at more than $35,000
                   was not adequately accounted for and safeguarded.

             “     Complete and accurate traffic load and other transportation
                   data were not always available during development of the
                   Territorial Transportation Improvement Plan.

             “     FHWA funds were not always used effectively for
                   critically needed highway improvements.




                           7
                      The Departments of Public Works and Property and
CONTRACT              Procurement did not ensure that professional service and
ADMINISTRATION        construction contracts for Federal highway projects were
                      administered in accordance with applicable local and Federal
                      guidelines. Specifically, the Departments (1) used contract
                      amendments and change orders to expand the scope of contracts
                      instead of requiring new competitive procurement, (2) did not
                      adequately verify that elements of overhead costs charged on the
                      basis of a percentage of salaries were not also charged as direct
                      contract costs, and (3) did not ensure that all contracts had a
                      specified provision for liquidated damages and that existing
                      liquidated damages clauses were enforced. As a result, the
                      scope of contract work was expanded at a cost of up to 363
                      percent above the original contract costs without competitive
                      procurement, two contractors may have received duplicate
                      payments for overhead charges totaling about $457,763 that
                      were also charged as direct costs, and liquidated damages
                      totaling $835,200 were not assessed against three contractors.


The Competitive       Government officials sometimes bypassed the competitive
Procurement Process   procurement process by issuing contract amendments or change
Was By-passed         orders for work that was outside the scope of the original
Through Contract      contracts. This practice was contrary to the basic premise
Amendments            contained in both Federal and local regulations that procurement
                      actions be made on a competitive basis to the maximum extent
                      practicable. For example:

                            - A 1986 contract for engineering design and
                      environmental assessment services for highway projects was
                      extended for a period of more than 13 years through three major
                      amendments and a 1999 noncompetitive follow-on contract that
                      added many items that were not in the original scope of work.
                      The original November 1986 contract was related to highway
                      projects on St. Thomas for the Black Point Hill Road, Bolongo
                      Bay Road, and Mandahl Road at a cost of $958,841. The first
                      amendment, in July 1988, added engineering services for
                      highway projects on the Long Bay Road and the Frenchman’s
                      Bay Road at an additional cost of $354,368. The second
                      amendment, in June 1990, added engineering services for
                      highway projects on the Veteran’s Drive/Lovers Lane
                      intersection, the Long Bay Road near the Yacht Haven Hotel,
                      curbing for the Centerline Road, and changes to prior designs for
                      the Bolongo Bay Road at an additional cost of $251,742. The
                      third amendment, in July 1991, added engineering services for
                      highway projects on the Race Track Road-Raphune Hill-
                      Centerline Road intersection, a drainage culvert in the Long Bay

                                   8
area, and the Turpentine Run-Bolongo Bay Road intersection,
plus an archeological inventory of the Long Bay and
Frenchman’s Bay Roads at an additional cost of $397,412.
Lastly, the follow-on contract, in September 1999, added
engineering work for the Havensight Road, a storm sewer for 9th
Street, the Turpentine Run bridge, a culvert for the Mandahl
Road, and additional changes to the designs for the Bolongo Bay
Road at an additional cost of $729,250. Therefore, the final
contract cost was $2,691,613, or an increase of $1,732,772
(181 percent) over the original contract price of $958,841.

      - A 1993 contract for construction management and
inspection services was extended for a period of 5 years through
five contract amendments that, in later amendments, added work
that was not part of the original scope of work. The original
September 1993 contract was related to construction
management of highway projects on St. Thomas for the
Veteran’s Drive and the Moravian Highway at a cost of
$805,086. The first amendment, in March 1995, extended the
contract period by 9 months and increased the overhead cost rate
specified in the original contract at an additional cost of
$770,333. The second amendment, in December 1995, extended
the contract period by 5 months, added overtime costs, and
increased the fixed fee (profit) specified in the original contract
at an additional cost of $434,940. The third amendment, in July
1996, extended the contract period by 6 months and increased
base labor rates at an additional cost of $597,318. The fourth
amendment, in December 1996, extended the contract period
5 months and added construction management services for
Hurricane Marilyn and Bertha recovery projects, the
establishment of a materials testing laboratory, and traffic
engineering services at an additional cost of $554,299. And the
fifth amendment, in May 1997, extended the contract period
15 months (through fiscal year 1998) and added construction
management services for the Lovers Lane and Fort Mylner
intersections and the operation of the materials testing laboratory
at an additional cost of $566,932. Therefore, the final contract
cost was $3,728,908, or an increase of $2,923,822 (363 percent)
over the original contract price of $805,086.

     - A 1998 contract for construction services to upgrade
Buddhoe Park on St. Croix was extended for a period of 91 days
through six change orders that added work that was not in the
scope of work of the original contract. The original June 1998
contract for upgrades to Buddhoe Park was in the amount of
$597,590. The first change order added work on the Park’s
bandstand and bathrooms at an additional cost of $132,182. The

              9
                                 second change order added extensive landscaping work,
                                 including trees and plants and a sprinkler system, at an
                                 additional cost of $176,022. The third change order extended
                                 the contract period by 7 days and added further work on the
                                 sprinkler system, park benches, brick sidewalks, pole lights, and
                                 trimming of trees at an additional cost of $105,694. The fourth
                                 change order extended the contract period by 7 days and added
                                 asphalt resurfacing of adjacent streets, curbing, additional
                                 lighting, telephone and electrical conduits, a water fountain, and
                                 further trimming of trees at an additional cost of $153,964. The
                                 fifth change order extended the contract period by 63 days and
                                 added a dockmaster ramp, pavement markings, additional brick
                                 work, and metal posts and chains at an additional cost of
                                 $47,694. And the sixth change order extended the contract
                                 period by 14 days and added work to replace plants and trees
                                 damaged by Hurricane Georges at an additional $43,695.
                                 Therefore, the final contract cost was $1,257,111, or an increase
                                 of $659,521 (110 percent) over the original contract price of
                                 $597,590.

                                 In the case of the two highway-related professional services
                                 contracts, work for each new highway project not included in the
                                 scope of work of the original contracts should have been
                                 procured separately using competitive requests for proposals. In
                                 that way, the Government would have been in a better position
                                 to obtain more advantageous contract prices for the additional
                                 work.

                                 With regard to the work to upgrade Buddhoe Park, the scope of
                                 work should have been better planned so that all desired work
                                 (with the exception of that related to repairs of Hurricane
                                 Georges damage) could have been included in the original
                                 invitation for bids, instead of being added to the contract on a
                                 piecemeal basis. It is likely that the Government would have
                                 been able to obtain a better overall price for the entire project if
                                 it had planned properly and sought competitive bids for all
                                 desired work.


Overhead Costs of $457,763 Two of the 10 contracts we reviewed were "cost plus fixed fee"
Also May Have Been         agreements that included provisions for the payment of the
Charged as Direct Costs    contractors’ fringe benefit costs, overhead costs, and a fixed fee
                           (or profit). However, we noted that some types of costs that
                           were charged by the contractors as overhead costs were also
                           charged as direct costs. Specifically, we found the following:



                                              10
      - During the 5-year life of a contract for construction
management and inspection services, the approved overhead
rates ranged from 61.11 percent to 70.68 percent of salaries and
wages. A review of the company’s financial statements
disclosed that the overhead rates included reimbursement for
such costs as travel, rent, utilities, postage, equipment rental, and
office maintenance, among others. However, these same cost
elements were specifically included in the contract and contract
amendments as "miscellaneous direct non-salary costs" that were
directly reimbursed under the contract. Based on our review of
available contract payment documents, we estimated that
potential duplicate payments for such costs totaled $352,387.
We also noted that for 1995, the overhead cost rate of
70.68 percent and the fringe benefit rate of 32.21 percent
exceeded the company’s calculated field office rates of
66.39 percent for overhead costs and 21.72 percent for fringe
benefit costs. These discrepancies appear to have occurred
because Government officials did not review the company’s
financial statement disclosures related to overhead cost and
fringe benefit rates. We further noted that the contractor
charged for and was paid for overtime and office cleaning costs
totaling $4,984 (for the period of September to October 1997)
that were not authorized under the fifth contract amendment.
Similarly on March 3, 1997, the Federal Highway
Administration disallowed contractor claims for reimbursement
of costs totaling $1,411 (for the period of November 1996 to
January 1997) for such items as telephone and cellular phone
service, late rent charges, office cleaning, paint, computer
supplies, and an airline ticket for a Public Works employee.

Other discrepancies were identified during the life of the
contract. For example, in a letter dated February 20, 1997,
Public Works’ Grants Manager recommended that the contractor
be required to provide justification for some disputed costs and
that other costs be disallowed.                  However, the
then-Commissioner of Public Works ordered that all contractor
claims be paid. In a memorandum dated October 11, 2001, the
Federal Highway Administration’s Territorial Representative
questioned the overall cost of the services provided by the
contractor, noting that the construction management and
inspection services had cost an equivalent of 50 percent of the
project construction costs, although the industry standard was
for construction management and inspection services to cost
from 3 to 10 percent of construction costs. A Public Works
official responded to the Territorial Representative by explaining
that extensions to the project construction period had resulted in
the high construction management and inspection costs and

              11
                         recommending that Public Works be provided with additional
                         permanent staff to perform such services in-house.

                                - During the 13-year life of a contract for highway
                         engineering and design services, the approved overhead rates
                         ranged from 105 percent to 112.3 percent of salaries and wages.
                         A review of the company’s financial statements disclosed that
                         the overhead rates included reimbursement for such costs as
                         rent, telephone service, and utilities, among others. However,
                         these same cost elements were specifically included in the
                         contract and contract amendments as "miscellaneous direct
                         non-salary costs" that were directly reimbursed under the
                         contract. Based on our review of available contract payment
                         documents, we estimated that potential duplicate payments for
                         such costs totaled $105,376.

                         In summary, the two contractors may have received duplicate
                         payments totaling about $457,763 for costs included in the
                         contracted overhead rates and as "miscellaneous direct
                         non-salary costs" under the contracts. To the extent that the
                         opportunity still exists for the Government to make claims
                         against the contractors for reimbursement of the duplicate
                         payments, such claims should be pursued as promptly as
                         possible. Additionally, the Government should ensure that
                         comprehensive reviews are made of proposed direct and
                         overhead (indirect) cost elements during future contract
                         negotiations to ensure that no duplication exists.


Liquidated Damages       The Government did not ensure that all construction-related
of About $835,200 Were   contracts had provision for liquidated damages and that, where
Not Enforced and         liquidated damages provisions were included in the contracts,
Collected                they were enforced. For example:

                               - A December 1996 contract for the installation of traffic
                         signs on St. Croix that were damaged in September 1995 by
                         Hurricane Marilyn did not include provision for liquidated
                         damages. Although the standard-format contract document had
                         a clause regarding liquidated damages, the daily rate for
                         liquidated damages was stated as "N/A," meaning "not
                         applicable." In May 1997 and again in November 1998, Public
                         Works attempted to issue change orders to increase the scope of
                         work under the contract with a corresponding increase in
                         contract cost, from the original $63,936 to $313,515. A
                         proposed supplemental contract was rejected by the Department
                         of Property and Procurement, but a new contract was issued to
                         the same contractor. The second contract, which was issued in

                                      12
February 2001 at a contract price of $120,447, also included the
notation "N/A" as the daily rate for liquidated damages amount.
Because the files at Property and Procurement for the first
contract did not include a Notice to Proceed, we were unable to
determine the date by which work under the contract should
have been completed. However, for the second contract, we
determined that completion of work was delayed at least 86 days
beyond the required contract completion date. Based on the
applicable Federal liquidated damages rate of $300 per day, we
estimated that liquidated damages of about $25,800 could have
been assessed against the contractor if the contract had included
provision for liquidated damages.

      - Another contractor was not assessed liquidated damages
totaling about $724,200 for two contracts awarded for separate
drainage system construction projects in the Sub Base/Crown
Bay area of St. Thomas. The first contract was issued in June
1999 and, after four change orders, had a contract completion
deadline of 296 days after the approved work start date.
However, work under the contract was not completed until
494 days after the required completion date. Based on the
$1,200 per day liquidated damages rate specified in the contract,
we estimated that liquidated damages of $592,800 should have
been assessed. The second contract was issued in January 2000
and, after two change orders, had a contract completion deadline
of 153 days after the approved work start date. However, work
was not completed under the contract until 219 days after the
required completion date. Based on the $600 per day liquidated
damages rate specified in the contract, we estimated that
liquidated damages of $131,400 should have been assessed.
However, in August 2001, the contractor and a representative of
the Commissioner of Public Works wrote to the Commissioner
of Property and Procurement requesting an extension of the
contract completion dates. Although the Commissioner of
Property and Procurement did not respond to the request, as of
the time of our review (December 2001), liquidated damages
had not been assessed against the contractor.

      - A third contractor was awarded a contract in October
1999 for the construction of the Christiansted Boardwalk. The
contract, after four change orders, had a contract completion
deadline of 209 days after the approved work start date.
However, work under the contract was not substantially
completed until 142 days after the required completion date. As
of the time of our review, the final payment under the contract
had not been processed because of a dispute between the
contractor and subcontractors and because the contractor had not

             13
                           submitted all necessary administrative paperwork. However, we
                           found no documentation in the contract files to indicate that the
                           Government was planning to assess the appropriate liquidated
                           damages of $600 per day, or $85,200.

                           In summary, because of the lack of enforcement of liquidated
                           damages provisions, which are standard for construction
                           contracts, the Government lost the opportunity to save at least
                           $835,200 in construction costs as a result of contractor delays in
                           completing required contract work.


Federal Highway            In June 1997, Public Works and the Federal Highway
Administration Branch      Administration entered into a Memorandum of Understanding
Used to Procure Contract   (MOU) by which the Administration’s Eastern Federal Lands
Services                   Highway Division (Eastern Division) would manage selected
                           highway engineering and construction projects on behalf of
                           Public Works. The MOU was amended in 1999, and a new
                           MOU was being negotiated at the time of our audit.

                           During fiscal years 1997 through 2001, the Eastern Division
                           managed 21 projects valued at $59.3 million. The Public
                           Works’ Program Manager explained that the services of the
                           Eastern Division were used because it speeded up the
                           procurement process and cost less than commercial construction
                           management contractors. However, the Commissioner of
                           Property and Procurement told us that he had some concerns
                           with the arrangement because his department was completely
                           bypassed by the Eastern Division during the procurement
                           process. Typically, the Eastern Division established a local field
                           office and carried out the engineering design, advertising,
                           bidding, awarding, monitoring and inspection, and payment
                           functions. In compensation, the Eastern Division deducted a fee
                           from the authorized project funds -- typically in an amount equal
                           to about 10 to 15 percent of the total project cost.

                           In our opinion, it appears that the arrangement between Public
                           Works and the Eastern Division has been productive and cost
                           effective.     However, to address the concerns of the
                           Commissioner of Property and Procurement, who is designated
                           by the Virgin Islands Code as the Government’s responsible
                           contracting official, we believe that Public Works should
                           negotiate with the Eastern Division to amend the MOU to
                           require that the Eastern Division coordinate its procurement
                           activities with the Department of Property and Procurement, so
                           that the Government’s designated contracting official can have
                           a representative participate in the contract procurement process.

                                        14
                        The Department of Public Works needed to improve its
GRANT                   management of FHWA grants. Specifically, Public Works did
MANAGEMENT              not (1) ensure the accuracy of monthly employee activity reports
                        and salary reimbursements, (2) provide sufficient opportunity for
                        the employment of disadvantaged business enterprises, and (3)
                        adequately protect Federally-funded equipment and maintain
                        accurate property records. In addition, objective planning
                        criteria was not always available for the development of the
                        annual Territorial Transportation Improvement Plan. As a
                        result, salary reimbursements from FHWA funds were overpaid
                        by $43,913, the Disadvantaged Business Enterprise Program was
                        not achieving its primary objective, FHWA funds were
                        expended to design projects for which construction funds were
                        not available and insufficient funds were available for other
                        needed construction projects, and there was some unaccounted
                        for Federally-funded equipment.


Salary Reimbursements   FHWA funds are used to reimburse the Government’s General
Were Overpaid by        Fund for the salary costs for the three employees of the Office of
$43,913                 Civil Rights and the four employees of the State Planning and
                        Research Office. The reimbursements are made on the basis of
                        monthly time and attendance activity reports used to document
                        project time distribution. We found that although each month
                        had a varying number of work hours, the activity reports were
                        prepared and reimbursements for salary and fringe benefit costs
                        were based on a standard 160 hours per month. Additionally,
                        although the Government’s standard fringe benefit rate was
                        26 percent of basic salary costs, a rate of 47 percent was used to
                        compute the amount of fringe benefit reimbursements. Further,
                        we noted that although the Notice of Personnel Action for one
                        employee stated that his hourly pay rate of $7.50, salary
                        reimbursements for this employee were being calculated at an
                        hourly rate of $7.93. All of these errors resulted in total salary
                        reimbursement overpayments of $25,986 for fiscal years 2000
                        and 2001. These errors resulted, at least in part, because the
                        calculations and reimbursement vouchers (Form PR-20) were
                        not reviewed for accuracy before being submitted to the
                        Commissioner of Public Works for approval.

                        Overpayments of salary reimbursements to the General Fund
                        totaling an additional $17,927 were also made in the case of an
                        employee who worked in two functional areas of Public Works
                        during the period of March 1999 through October 2000.
                        Reimbursements should only have been processed for work on

                                     15
                                approved FHWA programs. In a November 13, 2001 letter, the
                                Federal Highway Administration’s Territorial Representative
                                disapproved a reimbursement claim for the period of October
                                1999 through June 2000. But erroneous reimbursements for the
                                remaining 11 months of the overall period were not detected and
                                disapproved. Combined with the overpayments of $25,986
                                discussed in the prior paragraph, total overpayments of salary
                                reimbursements from FHWA funds amounted to $43,913.


Disadvantaged Business     The Office of Civil Rights administers the Disadvantaged
Enterprise Program Did Not Business Enterprise Program. The objectives of the program are
Achieve Stated Objectives to (1) ensure non-discrimination in the award and administration
                           of highway programs funded by the U.S. Department of
                           Transportation, (2) help remove barriers for disadvantaged
                           business enterprises, and (3) assist in the development of firms
                           that can compete successfully in the market outside the program.

                                However, the program was not adequately funded nor staffed.
                                Although the program and salary cost reimbursements should
                                have been financed with FHWA funds, the required funding was
                                not provided by Public Works’ Office of Highway Engineering.
                                During fiscal year 2001, funding for the program was not
                                authorized as part of the annual Territorial Transportation
                                Improvement Plan and, as of October 17, 2001, salary
                                reimbursements for fiscal year 2001 had not been processed. In
                                January 2002, subsequent to the completion of our audit, Public
                                Works requested additional FHWA funds to reimburse the
                                Department for payroll costs of the Disadvantaged Business
                                Enterprise Program. In March 2002, the FHWA Representative
                                retroactively approved additional funding of $112,511 for the
                                fiscal year 2001 payroll costs.

                                At the time of our audit, the Office of Civil Rights had a staff of
                                two persons on St. Croix and no staff on St. Thomas. This
                                staffing level, particularly on St. Thomas, did not allow for the
                                efficient administration of the program, which involved site
                                visits to disadvantaged businesses, site visits to highway projects
                                where disadvantaged businesses were employed, and training for
                                the more than 90 businesses territory-wide that were registered
                                with the program.

                                The Federal Transportation Equity Act for the 21st Century
                                requires that not less than 10 percent of the amount available
                                annually for Federal highway projects be expended with small
                                business concerns. In an effort to comply with this requirement,
                                Public Works established a percentage goal for each highway

                                             16
                       project in the Virgin Islands. However, the target percentages
                       were not always achieved. For example, a goal of 28 percent
                       disadvantaged business participation was established for a
                       construction project on St. Croix. However, although five
                       disadvantaged businesses were hired under the project and the
                       Federal minimum participation level of 10 percent was met for
                       the year, only a 13.05 percent of participation (rather than the
                       locally-established goal of 28 percent) was achieved for this
                       particular construction project.

                       The policy statement for the Disadvantaged Business Enterprise
                       Program states that implementation of the program is a legal
                       obligation and that failure to carry out its terms shall be treated
                       as a violation whereby sanctions may be imposed. Therefore, if
                       the program is not effective in ensuring local participation by
                       disadvantaged businesses, FHWA funding could be jeopardized.
                       We believe that the absence of an effective communications
                       channel between the Office of Civil Rights and the Office of
                       Highway Engineering contributed to this problem.


Federally-Financed     FHWA funds were used to purchase equipment and supplies for
Equipment Was Not      the Office of Highway Engineering, the State Planning and
Adequately Accounted   Research Office, and the Office of Civil Rights. FHWA funds
for and Safeguarded    were also used to purchase vehicles for the Office of Highway
                       Engineering and the State Planning and Research Office.
                       Although we received inventory lists from the Office of
                       Highway Engineering and the State Planning and Research
                       Office, both lists were incomplete. Specifically, we found that:

                            - Virgin Islands property numbers were missing from 105
                       of 165 items on the lists. In addition, a laptop computer
                       assigned to the St. Croix branch of the State Planning and
                       Research Office and sent to St. Thomas for repairs was not
                       included in the St. Croix office’s inventory list.

                            - The prior supervisor of the Office of Civil Rights
                       provided a handwritten list of 11 items (computers and printers)
                       in the St. Croix office. However, a recently-purchased
                       photocopier on St. Croix and six items in the St. Thomas office
                       were not included. Additionally, correspondence from the
                       supervisor revealed that computer equipment that was purchased
                       in 1997 at a total cost of $24,564 could not be identified. Other
                       computer equipment also purchased in 1999 at a total cost of
                       about $10,340 was not in service.



                                    17
                                   - We selected a sample of 30 equipment items from the
                             available inventory lists and attempted to locate the items. We
                             could not find 3 of the 30 items and noted that 16 items did not
                             have Virgin Islands property tags.

                             Both Federal and local property management regulations require
                             that detailed property management records be maintained and
                             that physical inventories of equipment be taken at least once
                             every two years. These controls were not in place for
                             FHWA-funded equipment.


Complete Data Was Not        The Territorial Transportation Improvement Plan is a document
Available to Develop the     used by the Office of Highway Engineering as the guide for
Territorial Transportation   obligating the territory’s annual allotment of FHWA funds. The
Improvement Plan             Director and Assistant Program Manager of Highway
                             Engineering compile the plan with input from the Commissioner
                             of Public Works and the Governor’s representative. However,
                             our review disclosed that the underlying data needed to
                             effectively determine transportation needs and priorities was
                             incomplete and, therefore, of questionable validity in the
                             selection of projects to be included in the plan.

                             It is the responsibility of the State Planning and Research Office
                             to provide meaningful data related to the territory’s traffic flows
                             and counts, road condition, and other transportation activities to
                             identify transportation needs and make recommendations to
                             improve the highway system. This type of data was being
                             collected and used for transportation planning on St. Croix.
                             However, the State Planning and Research Office was not
                             adequately staffed on St. Thomas, where it had only one
                             employee. As a result, only limited transportation research was
                             performed and very limited relevant data was available for the
                             planning of territorial transportation projects. For example,
                             during fiscal year 2000, FHWA funds of about $2 million were
                             allocated for traffic signal improvement, repair, and control on
                             St. Croix and, as of August 2001, $1.6 million of that amount
                             had been expended. In contrast, only $77,000 was allocated and
                             expended for similar work on St. Thomas because of the lack of
                             data to determine the needs on that island.

                             The lack of relevant transportation data for the St. Thomas/
                             St. John district could also be a contributing factor why Public
                             Works has often expended large sums of FHWA funds to design
                             projects only to have the design plans remain unused for many
                             years, thus requiring that the design work be updated or redone
                             at additional cost when the project is finally scheduled for

                                          18
                            construction. Further, because there was not a prioritized list of
                            potential transportation projects for the St. Thomas/St. John
                            district, projects not included in the Territorial Transportation
                            Improvement Plan were initiated by the Office of Highway
                            Engineering. We believe that the State Planning and Research
                            Office should be provided with the staff and other resources
                            necessary to function effectively in the St. Thomas/St. John
                            district and that transportation data from that district and the
                            St. Croix district should be used to establish and periodically
                            update a comprehensive 5-year project schedule as part of the
                            Territorial Transportation Improvement Plan.


Federal Highway Funds       Although FHWA funds of more $12 million were available
Were Not Used Effectively   annually to the Virgin Islands, these funds were not always used
for Critical Highway        effectively for critical highway improvement projects. For
Improvements                example:

                                  - The Federal Highway Administration gave Public Works
                            authorization to hire technical staff (such as engineers) under
                            contract and pay the related contract costs from FHWA funds.
                            However, this was intended to be a temporary arrangement until
                            such time as permanent Public Works employees could be hired
                            and trained to take over the technical aspects of administering
                            the FHWA grants and related transportation projects. However,
                            Public Works has maintained the six contract employees on staff
                            for 5 years (1997 to 2002), at an annual cost of about $460,000
                            ($456,489 in fiscal year 2000 and $464,000 in fiscal year 2001).
                            Therefore, these FHWA funds, totaling about $2.3 million over
                            5 years, were not available for highway projects.

                                  - Public Works did not always maximize the use of FHWA
                            funds for transportation-related projects. In 1998, a $598,000
                            contract for renovations of the historic Budhoe Park on St. Croix
                            was increased through a series of six change orders to
                            $1,257,111 (110 percent increase) for such additional work as
                            restroom renovations and elaborate landscaping and sprinkler
                            systems. In 1999, a $280,245 contract for construction of a
                            Millennium Monument at Point Udall on St. Croix was likewise
                            increased through a series of change orders to $442,568
                            (58 percent increase) for enhancements to the project.
                            Therefore, the additional funds used on these non-transportation
                            projects were not available for needed highway improvements.




                                         19
RECOMMENDATIONS
                          We recommend that the Governor of the Virgin Islands direct
TO THE GOVERNOR OF the Commissioner of Public Works to:
THE VIRGIN ISLANDS
                             1. Strictly enforce the provisions of the Code of Federal
                          Regulations and Virgin Islands procurement policies that require
                          the use of competitive procurement procedures for purchases
                          and contracts funded by grants from the Federal Highway
                          Administration. This should include discontinuing the practice
                          of using contract amendments and change orders to expand the
                          scope of existing contracts so as to bypass the competitive
                          procurement requirements.

                             2. Establish procedures to require that reviews are performed
                          of the cost elements included in overhead rates charged by
                          contractors to ensure that these items are not also charged
                          against the contracts as direct costs. With regard to the specific
                          contracts discussed in this report, if it is determined that
                          duplicate charges did occur, action should be initiated to recover
                          the duplicate amounts.

                             3. Prepare and process the documents necessary to recover
                          amounts that were reimbursed to the General Fund in excess of
                          the correct salary amounts related to Federal highway programs.

                             4. Establish procedures to require that documents to request
                          future salary reimbursements are reviewed for accuracy prior to
                          being submitted to the Commissioner for signature approval.

                             5. Provide the Office of Civil Rights with the staff and other
                          resources needed to effectively administer the Disadvantaged
                          Business Enterprise program in both the St. Croix and
                          St. Thomas/ St. John districts.

                             6. Establish and strictly enforce procedures for the control
                          of equipment purchased with Federal highway funds, as required
                          by the Code of Federal Regulations and Virgin Islands property
                          management policies. These procedures should provide for
                          detailed property management records, physical inventories at
                          least every other year, the physical safeguard and maintenance
                          of such equipment, and policies for disposal of items that are no
                          longer needed or usable.




                                       20
                                7. Provide the State Planning and Research Office with the
                             staff and other resources needed to effectively carry out the
                             transportation research and planning functions necessary to
                             prepare 5-year Territorial Transportation Improvement Plans
                             that address the specific priority needs of both the St. Croix and
                             St. Thomas/ St. John districts.

                                8. As part of establishment of the Territorial Transportation
                             Improvement Plans, ensure that the amount of Federal highway
                             funds used annually for non-transportation projects is kept to a
                             minimum level so as to maximize the funding available for
                             critically-needed highway improvements.

                                9. Negotiate with the Eastern Federal Lands Highway
                             Division to amend the existing memorandum of understanding
                             to require that the Division coordinate its procurement activities
                             with the Department of Property and Procurement, so that the
                             Government’s designated contracting official can have a
                             representative participate in the contract procurement process.

                             We recommend that the Governor direct the Commissioner of
                             Property and Procurement to:

                               10. Ensure that a daily rate is specified in the liquidated
                             damages clause for all construction-related contracts, and strictly
                             enforce the application of the liquidated damages provisions if
                             contractors fail to complete contracted work within the required
                             time periods (except for causes beyond their control, such as a
                             natural disaster).

                               11. Provide detailed information on the cost exceptions
                             identified on this report to the FHWA for its determination of
                             eligibility for Federal reimbursement.


                             The July 9, 2002 response (Appendix 3) to the draft report from
AUDITEE RESPONSE             the Commissioner of Public Works expressed concurrence with
                             Recommendations 3, 4, and 5; partial concurrence with
                             Recommendations 1, 6, and 7; and nonconcurrence with
                             Recommendations 2, 8, and 10. The response did not address
                             Recommendation 9.


                             Based on the response, we consider Recommendations 3, 4, 5,
OFFICE OF INSPECTOR 6, and 7 resolved but not implemented; Recommendations 2, 8,
GENERAL REPLY       9, and 10 unresolved; and requested additional information for
                             Recommendation 1 (see Appendix 4). Because this audit related

                                          21
to grant funds provided by the Federal Highway Administration,
we have added a recommendation (No. 11). Public Works
provide information to FWHA for resolution of the cost
exceptions. Specific comments made by the Commissioner of
Public Works in his response to the draft report and our replies
to the Commissioner’s comments follow:

Recommendation 1. Partial concurrence.

     Public Works Response. The response stated, "It is often
not in the best interest of the Government to request new bids
when additional work arises in relation to existing contracts.
The case can also be made that it is less costly to have additional
work performed by change orders and supplemental agreements,
rather than by bidding for new contracts for existing projects. . . .
Further, consulting engineering firms are selected based on
professional competence, experience, and approaches to work,
and not necessarily on price. When such professionals are
selected and are performing satisfactorily, it is quite reasonable
that additional work for the same or extended projects to be
performed as amendment(s) to the professional service
contracts."

     Office of Inspector General Reply. Although we
acknowledge that professional service contractors are generally
selected on the basis of qualifications, rather than price, we do
not agree with the presumption that the use of change orders or
contract amendments, rather than competitively awarding
contracts for new or extended projects, can often be more
advantageous to the Government. Public Works’ practice of
continuously extending existing highway engineering contracts
through change orders and contract amendments – up to a period
of 15 years in one instance – is a questionable business practice
that locks the Government into a relationship with one service
supplier and deprives it of the potential for obtaining the same
or better quality service at a more favorable price. Public Works
should develop a good working relationship with a number of
highway engineering firms and use the competitive procurement
process to encourage those firms to compete against each other
to give the Government the best possible service at the best
possible price.

Recommendation 2. Nonconcurrence.

    Public Works Response. The response stated, "The listing
of direct non-salary costs and the listing of overhead costs,
which were used for the development of overhear rates, were

              22
both approved at the initiation of the Professional Services
Agreements (PSAs) by the Federal Highway Administration
(FHWA) and [Property and Procurement]. . . . Costs that can be
identified with any one project can be charged to that project,
and does not preclude the application of the overhead rate."

       Office of Inspector General Reply. We agree that the
charging of both direct and indirect (overhead) costs to a project
or contract is allowable under Federal cost principles. However,
it is improper to charge the same costs as both direct and indirect
(overhead) costs, as appears to have occurred in the instances
reported in the finding. To the extent that costs have been
charged as both direct and indirect costs, it represents a duplicate
charge that should be recovered from the contractors involved.
In at least one case cited in the finding, FHWA representatives
disallowed costs totaling about $1,411 that were duplicate
charged.

Recommendation 6. Partial concurrence.

      Public Works Response. The response noted that the
Federal regulations for the administration of grant programs
(generally referred to as the "Common Rules") allow states and
territories to account for Federally-funded equipment using their
own policies and procedures and stated that, as a result, "No
separate system is necessary to account for equipment and
supplies purchased with federal funds." The response also
stated, "While some items of equipment on the [inventory]
listing did not have [Property and Procurement] property
numbers, some of these items were identifiable on the list by
their serial numbers and other markings." The response further
stated that FHWA approved the use of computer equipment and
supplies purchased for the Disadvantaged Business Enterprise
program as part of a Department of Public Works computer
network system, but that the system may not have been
operational at the time of the auditor’s site visit.

     Office of Inspector General Reply. With regard to the
applicable property management requirements, while it is true
that the Common Rules allow states and territories to use their
own property management policies and procedures, the property
manual issued by Property and Procurement closely mirrors the
requirements contained in the Common Rules. Specifically, the
Property and Procurement’s procedures require that detailed
property records be maintained for all equipment (whether
locally or Federally funded) and that physical inventories of
equipment be performed at least every other year. The Property

             23
and Procurement procedures also require that a Government of
the Virgin Islands property tag be affixed to each item of
equipment and that the corresponding property number be
included in the property records. Lastly, we did not question the
use of computer equipment and supplies of the Disadvantaged
Business Enterprise program as part of Public Work’s network.
But we did make mention of the fact that some of this equipment
was not being used at the time of our site visit.

Recommendation 7. Partial concurrence.

      Public Works Response. The response stated that "the
auditor used an incorrect assumption in contrasting $1.6 million
of expenditures for traffic signal improvement and repair on
St. Croix to $77,000 for similar activities on St. Thomas, as of
August 2001. The fact is that in the years just prior to FY 2000,
substantial funds were expended for improvement to most of the
signalized intersections on St. Thomas, under the Veterans Drive
Project." The response also stated, "It is also a misstatement of
fact to say that because there was no prioritized list of potential
transportation projects for the St. Thomas/St. John district,
projects not included in the [Territorial Transportation
Improvement Plan] were initiated by the Office of Highway
Engineering."

     Office of Inspector General Reply. The $1.6 million
expended on St. Croix during fiscal year 2000 represented an
extensive traffic signal and signage program throughout the
island, whereas the response notes that the work performed on
St. Thomas before fiscal year 2000 was specifically related to
the Veterans Drive. Many other highways and roadways on
St. Thomas and St. John were in need of improved signals and
signage. Further, we did not state that there were no
St. Thomas/St. John projects included in the Territorial
Transportation Improvement Plan, only that they were not
clearly prioritized and, therefore, other projects not included in
the Plan were sometimes started before projects that were in the
Plan.

Recommendation 8. Nonconcurrence.

     Public Works Response. The response stated, "Costs for
project inspection, and program administration are allowable
whether such services are provided by contract personnel or by
employees on Government NOPA(s) [Notices of Personnel
Action]. Either way, such costs are 100% allowable under the
Federal Highway program. . . . The arrangement in place for

             24
contract personnel to work on the Federal Highway program
have continued with the approval of the granting agency." The
response also stated that "the cost of $1,257,111 for the Buddhoe
Park project did not exceed 10% of the 1998 program funds,
which totaled $12,972,960. And, the cost of $442,568 for the
Millennium Monument project was only about 3% of 1999
program funds, which totaled $12,856,480."

     Office of Inspector General Reply. According to
documentation received from FHWA representatives, that
FHWA intended that the use of contract personnel to manage the
Federal highway program in the Virgin Islands would be a
temporary arrangement until such time as Public Works was able
to hire and train a staff of full-time employees to assume the
oversight responsibility. However, through the time of our
review, Public Works had not taken positive steps in that
direction. We are pleased to see that Public Works has now
begun the process of converting contract personnel to full-time
employees status to manage the Federal highway program. With
regard to the costs incurred for developing the Buddhoe Park
and Millennium Monument, our primary concern was that the
costs for these non-transportation projects were allowed to
increase significantly beyond the original plans, thus reducing
the amount of FHWA funds available for critically-needed
highway improvements. The cost of the Buddhoe Park project
escalated from $598,000 to $1,257,111 (110 percent) and the
cost of the Millennium Monument increased from $280,245 to
$442,568 (58 percent). Given the highway improvement needs
of the Virgin Islands, we believe that it would have been more
prudent to fund the Buddhoe Park and Millennium Monument
projects from other sources, such as bond proceeds available for
general capital improvement projects.

Recommendation 10. Nonconcurrence.

     Public Works Response. The response stated, "As the
Contracting Officer’s Technical Representative (COTR) the
Commissioner of [Public Works] is responsible for informing
[Property and Procurement] if the contractor fails to complete
the work on time, and of the need to enforce provisions for
liquidated damages, if such is the case. Under [the Virgin
Islands Code] the Commissioner of [Property and Procurement]
may decide to forego liquidated damages when it is decided that
failure to complete the work on time was due to no fault of the
contractor. . . . Further, the enforcement of liquidated damages
provisions can lead to challenges. And often do. In such cases,
the daily rates as included in the contracts mentioned in the audit

             25
report would most likely not stand-up in court." The response
also stated, "Due to an error when the contract documents were
revised, the rates in the contracts in questions are the federal
rates rather the lower local rates, which are as much as 75%
less." The response further explained the circumstances related
to each of the contracts discussed in the finding, in each case
dismissing our conclusion that liquidated damages should have
been assessed.

     Office of Inspector General Reply. We acknowledge that
the imposition of liquidated damages would not be appropriate
if construction delays were caused by factors outside the control
of the contractor or if delays were justified and officially
approved through change orders or contract amendments that
extended the contract completion dates. In the examples cited
in the finding, we took into account such approved extensions of
the contract completion dates. However, we do not agree with
the notion that liquidated damages should not be enforced
because such action might result in legal challenges by
contractors. If the Government has adequately monitored
contractor performance and documented problems and delays
that were due to factors within the control of the contractors, it
should be in a position to justify and defend in court the
imposition of liquidated damages. If the Government would
begin to aggressively defend its right to enforce liquidated
damages that were included in properly executed contracts,
contractors may be less likely to challenge such action on the
Government’s part. Finally, with regard to the application of
Federal, as opposed to local, liquidated damage rates, we believe
that because the contracts in question were prepared, reviewed,
and executed in good faith by all parties concerned, the rates as
stated in the contracts – whether based on Federal or local law
– should be enforced.




             26
APPENDIX 1 - MONETARY IMPACT

FINDING AREAS                            Cost       Funds To Be Put
                                       Exceptions    To Better Use

Contract Administration
  Overhead Charges                     $457,763
  Unauthorized Overtime Costs             4,984
  Liquidated Damages                                   $835,200

Grant Management
  Salary Reimbursements                  43,913

   Totals                              $506,660        $835,200




__________
All amounts represent Federal funds.




                                         27
APPENDIX 2 - PRIOR AUDIT REPORTS
                           The January 1995 report "Federal Highway Projects, Department
OFFICE OF INSPECTOR of Public Works" (No. 95-I-312) stated that although the
GENERAL REPORT      Departments of Public Works and Property and Procurement
                           used appropriate competitive bidding procedures to award
                           construction contracts for highway projects, the Departments
                           needed to ensure that (1) competitive negotiation procedures
                           were used to award professional services contracts for project
                           management firms for highway projects and for contract
                           employees to staff the Highway Program Office and (2) contract
                           files contained adequate documentation of such competition or
                           justification as to why competitive procedures could not be used.
                           The report also stated that Public Works needed to (1) close out
                           completed or inactive Federal highway projects, (2) provide
                           documentation to verify whether Federal or local funds were
                           used to pay costs related to a non-highway project, and
                           (3) ensure that overhead rates used by project management firms
                           were fully documented and did not duplicate administrative
                           costs that were also charged as direct costs. Because the
                           then-Governor of the Virgin Islands did not respond to the
                           report’s 10 recommendations, they were considered to be
                           unresolved.

                           Based on our current audit, we determined that only 3 of the
                           10 recommendations had been implemented. As a result, the
                           reported deficiencies related to the enforcement of competitive
                           procurement requirements, the completeness of contract files,
                           and the appropriateness of overhead cost rates still existed.


                           The April 1999 report on "Cash Management Activities in the
FEDERAL HIGHWAY            Virgin Islands" concluded that vendors were not always paid in
ADMINISTRATION             a timely manner, even when the funds were already received
REPORTS                    from the Federal Highway Administration. As a result, Public
                           Works paid more for contracted work because the contractors
                           added the cost of capital in subsequent awards. The report
                           included five recommendations to Public Works.

                           The October 2000 report on "Cash Management Activities in the
                           Virgin Islands - St. Croix" concluded that, although significant
                           improvements were made in the timeliness of Public Works’
                           payment process, further improvements were still needed to
                           ensure that vendors were paid in a timely manner. The report
                           included five recommendations to Public Works.

                                        28
Based on our current audit, we determined that only 1 of the
10 recommendations made in the two cash management reports
had been implemented. At the close of the audit, personnel from
the Federal Highway Administration were compiling written
procedures for use by Public Works in processing documents
related to Federal highway grants.




            29
APPENDIX 3 - RESPONSE TO DRAFT REPORT




                   30
     Appendix 3
     Page 2 of 8




31
     Appendix 3
     Page 3 of 8




32
     Appendix 3
     Page 4 of 8




33
     Appendix 3
     Page 5 of 8




34
     Appendix 3
     Page 6 of 8




35
     Appendix 3
     Page 7 of 8




36
     Appendix 3
     Page 8 of 8




37
APPENDIX 4 - STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference               Status                         Action Required

           1             Management            Provide documentation to show recent
                         partially concurs;    instances where competitive procurement of
                         additional            new contract services was used in lieu of
                         information           contract amendments or change orders to
                         needed.               extend the scope of existing contracts.


     2, 8, 9, and 10     Unresolved.           Reconsider the recommendations and provide
                                               a corrective action plan that includes the target
                                               date and title of the official responsible for
                                               implementation of each recommendation.

    3, 4, 5, 6, and 7    Resolved, not         Provide documentation to show that the
                         implemented.          corrective actions stated in the response to the
                                               draft report have been completed.

           11            Unresolved.           Provide documentation to show the status of
                                               followup action taken to resolve the cost
                                               exceptions.




                                          38
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:

               Mail:         U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
               Phone:        24-Hour Toll Free           800-424-5081
                             Washington Metro Area       202-208-5300
                             Hearing Impaired            202-208-2420
                             Fax                         202-208-6023
                             Caribbean Region            703-487-8058
                             Northern Pacific Region     671-647-6060
               Internet:     www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
